                                          NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                  !    ACTION MEMORANDUM

    TO: AIGI     I File Number: 1-01050009                                    1 Date: 8/13/01
    Subject: Case Closure I
                                                                                                  'I

                              11
I   Action:
                                  I

    After several voicemails back and forth, today I spoke with the complainant,                   11 I
    explained that in her emils she had not provided sufficient evidence of wrongdoing, or specific
    factual information that could readily lead us to such evidence. For example, I pointed out that her
    story about her friend              :laving been asked by the subjects to give them his airfark receipt,
    presumably so they coulh claim reimbursement from grant funds for a ticket they did not pay for,
    would be sufficiently specific to allow us to request records from her friend, the grantee, and the
    subjects--except that hei friend did not provide the receipt to the subjects, so no actual wrongdoing
    occurred in that instance.                                                                    I1
                                 I
    She said that she does not have any specific evidence or additional information, so I informed her
    that we would close the case. She said she may speak to her friend to see whether he has anything,
    and if he does she will encourage him to contact me.                                        1
                             ,I
    This case is closed.




                              'I
                   Prepared by:                    Cleared by:

                  Agent:     '1       Attorney:   Supervisor:    AIGI
       Name:
                             I
